Davalloo v. Kaplan, Slip Cop

0)

•I'l
2020 WL 4569858
Only the Westlaw citation is currently available.
United States District Court, D. Connecticut.
Sheila DAVALLOO, Petitioner,
v.
Sabina KAPLAN, et al. Respondents.
No. 3:i7-cv-i257 (VAB)

A. The Criminal Trial
On November-.M, 2007, the State of Connecticut charged
Ms. Davalloo';\vith murder, in violation of Conn. Gen.
Stat. § 53a-54a"i See Resp’t App’x C, ECF No. 25-3 at 16
(Pet’r's App. Cf. Br. (Aug. 30, 2013)) (“Pet’r's App. Ct.
Br”). The jury:reasonably could have found, as described
by the Connecticut Appellate Court, that Ms. Davalloo was
involved in a “love triangle” with two coworkers—a man who
temporarily became her lover, and his girlfriend, Anna Lisa
Raymundo, in.|001 and 2002.J The jury also could have

Signed 08/08/2020

found that Ms.lDavalloo engaged in elaborate schemes of
deception, including the creation of fictitious people about
whom she told stories to her husband and others which were

Attorneys and Law Firms
Sheila Davalloo, Bedford Hills, NY, pro se.

actually about hefself, her former lover, and Ms. Raymundo.4

Michelle Elaine Maerov, Office of New York State Attorney
General, New York, NY, JoAnne Sulik, David M. Kutzner,
Chief State Attorney Office, Civil Litigation Bureau, Rocky
Hill, CT, for Respondents.

The jury could'have further found that Ms. Davalloo used
this deception to,meet secretly with her former lover5 and
to follow him :,.and Ms. Raymundo,6 and that such acts
ultimately led to the November 8, 2002 murder of Ms.
Raymundo in her apartment in Stamford, Connecticut.1 A
jury also couldflfave found that Ms. Davalloo subsequently

RULING ON PETITION FOR
WRIT OF HABEAS CORPUS
Victor A. Bolden, United States District Judge

continued to deceive her husband and others in order to
resume a secretjpejationship with her former lover, that her
husband became suspicious that Ms. Davalloo may have been
involved in Ms.'Raymundo's murder in Stamford,9 and that

*1 On February 28. 2017, Sheila Davalloo (“Petitioner”),
a state prisoner currently incarcerated at the Bedford
Hills Correctional Institution (“Bedford Hills”) in Bedford
Hills, New York, brought a petition for writ of habeas
corpus pro se under 28 U.S.C. § 2254 in this Court
challenging her Connecticut conviction for murder, in
violation of Connecticut General Statutes (“Conn. Gen.
Stat.”) § 53a-54a.1
Ms. Davalloo claims that the state trial court improperly: (1)
admitted evidence of conversations she had with her husband,
which were protected by Connecticut's marital privilege
statute; (2) admitted evidence of uncharged misconduct,
including the petitioner’s attempted murder of her husband
and statements to her husband about surveilling the victim;
and (3) found that her decision to waive her right to counsel
was valid.2 Pet.,ECFNo. 1, Feb. 28, 2017.

these events led^finally to the attempted murder in March
* /f

2003 of Ms. Davalloo's husband in Valhalla, New York.10
••:ky

*2 Ms. Davalloo's husband “lived to testify in the jury trial
of [Petitioner] fpr. the murder of’ Ms. Raymundo, and Ms.
Davalloo “was convicted of murder in violation of § 53a-54a.
rV
She was sentenced to fifty years imprisonment consecutive to
her sentence invithe New York case for the attempted murder
of’ her husband. S/tf/e v. Davalloo, 153 Conn. App. 419, 429
(2014).
B. Direct Appeal
,K I

Petitioner appealed her murder conviction to the Connecticut
’ v;
Appellate Court;hnd raised the following claims, the same
claims she raise^lnow:

1
■s
• ij
I

For the following reasons, Ms. Davallo's petition for writ of
habeas corpus is DENIED.
I. FACTUAL AND PROCEDURAL HISTORY

(UT'in violation of the marital
;
communications privilege, the [trial]
court
improperly
permitted
Christos, her husband at the time of
j

• ?■.

1
I

;\”/r

WESTLAW ic) 202.1 1 bomson Reuters. No claim to original U.S, Govornnionr Works.

APPEND) X A

1

■'p

•/
Davalloo v. Kaplan, Slip Cop

0)

events in question, to testify as to
conversations she had with him, (2) the
[trial] court improperly permitted the
state to present evidence of uncharged
misconduct, and (3) the [trial] court
improperly found that she validly
waived her right to trial counsel.

Davalloo, 153 Conn. App. at 420. The Appellate Court
rejected all three claims and affirmed Petitioner's conviction.
See id. at 429-49.
1. Appellate Court's Decision on Marital Privilege Claim
With respect to the first claim, Petitioner argued that the
trial court's admission of the following conversations was a
violation of the marital communications privilege:

(1) stories about Melissa, Jack and
Anna Lisa, (2) fictional visits from
[Petitioner’s] brother, (3) [Petitioner’s]
informing Christos that she bought a
lock pick set to get into the victim's
house to look for photographs, and her
attempts to use the lock pick set on the
front doors of their condominium, (4)
conversations about an eavesdropping
device that [Petitioner] wanted to
place in Jack's office to listen to
his conversations, (5) [Petitioner's]
questioning of Christos in late 2002
about DNA and fingerprints, (6)
stories about Melissa's becoming
upset when Jack rebuffed her sexual
advances and Melissa’s arranging to
run into Jack at an airport and
fly back home in the seat next
to him, (7) in November, 2002,
Christos' asking [Petitioner] about
Anna Lisa, and [Petitioner's] reporting
that Jack had ended his relationship
with Anna Lisa and was dating Melissa
exclusively, (8) in late November,
2002, [Petitioner's] explaining that she
had cut her thumb on a can of dog food,

Jt.
and (9) the events of the stabbing on
Mai4jh 23, 2003.
i

J

: x
: t>

Davalloo, 153 J^onn. App. at 430-31. She argued that the
trial court improperly focused its analysis on the nature of
her marriage with Mr. Christos, rather than on the nature
of the conversations and misinterpreted the meaning of
Connecticut’s ifiajital privilege statute, Conn. Gen. Stat. §

54-84b. Davalloo, 153 Conn. App. at 433-34.
$s
*

The Appellate Court
rejected Petitioner's claim and held that
*r •
the trial court ‘did not abuse its discretion in admitting the
statements. Davdlloo, 153 Conn. App. at 434-36. In doing
so, the Appellate' Court applied Connecticut's principles of
statutory construction and held that the plain language of
§ 54-84b provides that, in order for the privilege to apply,
the statement iri'!question must be “induced by the affection,
confidence, loyalty and integrity of the marital relationship.”
hi. at 435 (quoting § 54-84b). The Appellate Court held that
the trial court correctly ruled that Petitioner's statements in
this case were not “induced by the affection, loyalty and
integrity of the piarital relationship” but, rather, were meant to
“deceive” her husband and “further her obsessive relationship
with Sessler,” affd that the trial court's conclusion that the
privilege did not/apply was proper, id.
2, -Appellate Court's Decision on
•Tty
Uncharged Misconduct Claim
T:;;

*3 Petitioner-'Hext claimed that the trial court improperly
admitted evidence about her attempted murder of her husband
in New York ail'd her plan to surveil Raymundo, the murder
victim, including.her procurement of night vision goggles,
eavesdropping devices, and a lock pick. Davalloo, 153 Conn.
App. at 436; Pet’r’s App. Ct. Br. at 37. The Appellate
Court held that,the testimony was admissible as evidence
of her motive and her common plan or scheme to win over
Sessler's affections and eliminate those who stood in her
way. Davalloo,Conn. App. at 440-42. The Appellate
\ ['
Court therefore held that the trial court properly admitted the
testimony under Conn. Code of Evid. § 4-5(b), which permits
“[e]vidence of other crimes, wrongs or acts ... to prove intent,
identity, malice, motive, common plan or scheme, absence of
mistake or accident, knowledge, a system of criminal activity,
or an element of the crime ...." hi at 438-39. The trial court
also instructed the jury that “the misconduct evidence had not
been admitted ,fo show bad character or propensity toward
violence, but ori'fy to show motive, common plan or scheme,

WESTIAW ■;£> 202" Thomson Reuters. No claim to original U.S. Government Works

APPETMDIX A

(coNT'lfe)
tv

*

Davalloo v. Kaplan, Slip Cop

0)

to corroborate prosecution testimony and to complete the
story of the crime.” Id. at 438. The Appellate Court thus held
that the trial court's admission of this evidence was not an
abuse of discretion. Id. at 442.
3. Appellate Court's Decision
on Waiver of Counsel Claim
Petitioner's final argument challenged the validity of her
waiver of counsel before trial. Davalloo, 153 Conn. App. at
442. The following facts are relevant to this claim:
Before trial, the trial court ordered a competency examination
of Petitioner. Resp’t App. M, ECF No. 25-21 at 2 (Criminal
Trial Tr. (Nov. 21, 2011)) (“Trial Tr.”). After hearing
testimony from the medical expert who evaluated Petitioner
that Petitioner demonstrated the capacity to understand the
proceedings against her and to assist in her own defense,
the trial court found Petitioner competent to stand trial. Id.
at 7, 16.11 In that same hearing, the trial court addressed
Petitioner’s motion to represent’herself in the upcoming trial
and canvassed her on her decision. Id. at 16-26.
During the canvass, petitioner affirmed that she was fortytwo years old, had a graduate degree, had been through a
criminal trial in New York, understood her constitutional
right to be represented by counsel, and understood the charge
of murder and its'elements. Trial. Tr. at 17-18, 25. She
also acknowledged that she understood “that the maximum
penalty for that crime [was] ... 60 years in prison” and that
“the mandatory minimum [was] 25 years.” Id. at 18.
The trial court informed her that if it permitted her to represent
herself, it “in all likelihood would give [her] some leeway in
the trial process but [that she was] going to have to follow the
rules of evidence just like a lawyer has to and have to follow
the proper courtroom procedures.” Id. at 19. Petitioner stated
that she understood that responsibility. Id.
The trial court also informed her that there were “great
dangers involved in self-representation” and that, if she
were to assert an affirmative defense of lack of capacity
due to mental illness or extreme emotional disturbance, she
would have to prove that defense by a preponderance of the
evidence. Id. at 20, 22. Petitioner stated that she understood
the dangers involved, and, although she did not plan to raise
any affirmative defenses, she understood her burden of proof
for them. Id. at 20, 22-23.

t
The trial court lifted during the canvass Petitioner's history of
mental illness arid that she had taken mental health medication
in the past, but was not taking any at the time of trial. Trial
Tr. at 22. Petitioner stated that her “mental health issues in the •
past ha[d] been ajot related to depression and PTSD,” but that
she no longer Wife taking any drugs, alcohol, or medication
that would affect'her ability to represent herself Id. at 23. 25.
The court concluded the canvass by verifying that Petitioner
understood the.^ecision she was making:
THE COUR'fcfjDkay. And you’re absolutely competenti2
... that you Can educate yourself even more so that you
can representtyburself competently and you’re confident in
your ability fo-go forward?

I

*4 [PETIT lOiNER]: Yes, Your Honor. I’ve been.doing it
-- I’ve been ... ’educating myself and I’ll continue to do so.
*\
; \*»
Id. at 25. The triaPcourt then found that Petitioner “knowingly,
intelligently andivoluntarily decided to represent herself,” id.
V
at 25-26, a decision based on both Petitioner’s statements
during-the canvass and the testimony of the mental health
expert during t|e competency hearing. Id. at 28. The trial
court appointed s'tandby counsel for Petitioner, and Petitioner
understood that.t-he role of standby counsel was solely to “sit
there mute" and’Answer any questions she had throughout the
trial. Id. at 23-24 27.
•O.S
V-

On direct appeal, Petitioner argued that the trial court's
canvass was invalid because it did not explain to her:
«•

the technical||problems she faced in ‘proving herself
innocent;’ tK& importance of counsel for an effective
defense; thfelby representing herself she substantially
increased theYrisk that although she may be innocent,
the jury ntayv;find her guilty because she d[id] not know
how to estabjish her innocence;’ that she was giving up,
as a practical’ matter, a defense of extreme emotional
disturbance and an instruction on lesser included offenses;
p 'y
and that the sentencing court could impose a sentence
consecutive Jjp. her New York sentence. She also argues
that the court ^misled her to believe that the trial judge
would not rigorously enforce the rules of evidence if she
represented herself and did not probe her regarding the
dissatisfaction’with counsel that led to her determination to
represent herself.
*11
Davalloo, 153 C6nn. App. at 445-46 (quoting Pet.’r App. Ct.
Br. at 49-51. H*

m

esW.

•W

WE5TLAW T> 2021 Thomson Reuters. No claim to original U S. Goverrij^ent Works.
&

APPPN£>1*

Ar (cipMT-’D)

3

Davalloo v. Kaplan, Slip Cop

■'•V;
3? •

0)

mut.<4
on all three ofeher claims, the Supreme Court granted
The Appellate Court addressed each of Petitioner's challenges
. to the trial court's canvass and upheld its validity in finding
a knowing, intelligent, and voluntary waiver of counsel. Id.
at AAG-A9. In rejecting Petitioner's challenges, the Court held
that (1) Petitioner was not required to prove her innocence as
the state bears the burden of proof beyond a reasonable doubt,
(2) the trial court had adequately warned her about the '‘great
dangers involved in self-representation[,]” and (3) the trial
court adequately advised her that she would bear the burden of
proving by the preponderance of the evidence any affirmative
defense she wished to raise. Id. at 446-48.

certification only on Petitioner's marital privilege claim.
Specifically, the^appeal was limited to the following issue:

As for her claim regarding her knowledge of the rules of
evidence, the Appellate Court held that the trial court properly
advised her that she would have to follow those rules “just
like a lawyer,” and Petitioner stated that she understood
that advisement. Id. at 447. The Appellate Court rejected
Petitioner's assertion that the trial court erred by not probing
her dissatisfaction with counsel, which led to her decision
to represent herself, as factually inaccurate because the trial
court did, in fact, inquire about her dissatisfaction with'
counsel, and Petitioner stated that, although she had a good

Resp’t App. H, ECF No. 25-9 {Stale v. Davalloo, 314 Conn.
o
949(2014)). I
i

rapport with counsel, she wanted more control over trial
strategy decisions. !:’ Id.

<*T* .«

.|-

Did ' the Appellate Court properly
construe ... § 54-84b in concluding that
thea statements made by [petitioner]
we'i^e not subject to the marital
communication privilege?
If

•'•I

Like the Appellate Court's decision, the Supreme Court
applied its established jurisprudence on statutoiy construction
and interpreted. §. 54-84b to require three elements in order
for statements to be protected by marital privilege: (1) the
statement musti^e made to a spouse during the marriage; (2)
the statement must be confidential; and (3) the statement must
be “induced bytiie affection, confidence, loyalty and integrity
of the marital reTationship.” Resp’t App. 1, ECF No. 25-10 at
8 (State v. Davalloo, 320 Conn. 123, 142 (2016) (quoting §
54-84b))).
ft'
■»W

*5 As for Petitioner's claims regarding the presentation of
affirmative defenses, the Appellate Court held that the trial
adequately advised her of her responsibility to prove any such
defense by a preponderance' of the evidence, and Petitioner
stated that she understood her responsibility and that she
would continue to educate herself on the law regarding those
issues. Id. at 447-48.
Finally, the Appellate Court rejected the claim that the trial
court had to inform Petitioner about the possibility of a
murder sentence being consecutive to her New York sentence.
Id. at 448-49. The Appellate Court held that the trial court's
advisement on the maximum possible sentence of sixty
years and the mandatory minimum sentence of twenty-five
years provided Petitioner “with a realistic picture of [her]
sentencing exposure” and, because Petitioner was forty-two
years old at the time of the canvass, she knew that a murder
conviction could effectively result in a life sentence. Id. at 449
(quoting State v. Collins, 299 Conn. 567, 614 (2011)).

4. Supreme Court's Decision on Marital Privilege Claim
Although Petitioner petitioned the Connecticut Supreme
Court for certification to appeal the Appellate Court’s decision

It upheld the trial court’s and Appellate Court's conclusions
that PetitionerVstatements regarding her plans to Surveil the
victim; the storie's of Melissa, Jack, and Anna Lisa; and the
events of the stabbing on March 23, 2003, were not “induced
by the affectioji, confidence, loyalty and integritv of the
rj;
marital relationship” but, rather, “to further her extramarital
affair with Sessfer and to ultimately eliminate, by murdering,
both Raymundo and Christos, who she perceived as obstacles
to that affair.” ftavalloo, 320 Conn, at 143-44. The Court
r

agreed with the^Appellate Court that the trial court's analysis
focused on the frature of the communications themselves, not
the nature of thejmarital relationship as Petitioner contested.
Id. at 145. The Supreme Court affirmed the Appellate Court's
judgment. Id. S’1

■ tt
5/jjF.he Pending Federal Petition

J

On February 2-$;j;2017, Petitioner, Ms. Davalloo, filed her
petition for wrlt'bf habeas corpus under 28 U.S.C. § 2254
in the Southern; District of New York challenging her
Connecticut conviction for murder. Pet.
Ms. Davalloo raises three claims in support of her petition:
that (I) the trial court improperly admitted evidence of

WE3TIAW 3; 2021 Thomson Reuters. No claim to original U.S. GQven.|'nent-Works,

APPENDIX A

C'fcoN.T'b)
,o

4

DavaHoo v. Kaplan, Slip Cop

0)
$4?

conversations she had with her husband, which were
protected by Connecticut's marital privilege statute; (2)
the trial court improperly admitted evidence of uncharged
misconduct, including her attempted murder of her husband
and statements to her husband about surveilling the victim,
and (3) she “did not voluntarily and knowingly waive[ ] her
right to counsel.” Id. at .5-8.
*6 On July 18, 2017, Ms. Davalloo's case was transferred
to the District of Connecticut. Order, ECF No. 17 (July 18,
2017).
On November 8, 2017, Sabina Kaplan, the superintendent of
the Bedford Hills facility, and Connecticut Attorney General
George Jepson (collectively, “Respondents”), submitted their
response to the petition. Resp. to Pet., ECF No. 25 (Nov.
8, 2017) (“Resp’t Opp’n”). They argue that Petitioner is not
entitled to relief on her first two claims because both concern
nonconstitutional violations of state law. Id. at 2.
In support of their opposition, Respondents filed thirty-six
documents, labeled as Appendices A through N, of filings and
judgments from the New York and Connecticut state cases
in which Ms. Davalloo was convicted. See Docket Entries,
ECF Nos. 25-l through 25-36 (Nov. 8, 2017). With respect
to the third claim, Respondents argue that the Connecticut
Appellate Court, the last court to provide a reasoned decision
on the issue, reasonably applied United States Supreme Court
precedent in rejecting Petitioner's challenge to her waiver of
counsel. Id.
On January' 16, 2018, Petitioner filed an objection to
Respondents’ opposition. Pet’r Obj. to Resp’t Mem. in Opp.,
ECF No.- 27 (Jan. 16, 2018) (“Pet’r Reply”). Petitioner
argues that her evidentiary claims warrant habeas relief and
that the Appellate Court unreasonably applied United States
Supreme Court precedent in finding a knowing, intelligent,
and voluntary waiver of counsel. .
On January 2,2020, the Court issued an order, explaining that
Ms. Davalloo appeared to be asserting an unexhausted ground
for habeas relief based on the trial court's failure to inquire
into her competency to waive counsel. See Order, ECF No.
28 at 2 (Jan. 2, 2020) (citing Pet. at 8-9 (describing history of
mental illness and failure of mental health evaluators to opine
on competency to waive counsel); Pet’r Reply at 7-8 (arguing
failure of state courts to apply Connecticut Supreme Court
and United States Supreme Court precedent on competency
to waive counsel)).

ft

The Court noted'that this claim, if Ms. Davalloo was asserting
it, was unexhausted because “Ms. Davalloo did not challenge
the trial court's faijure.to inquire into her competency to waive
counsel on direct: appeal; she challenged only its finding of
a knowing, infeljjigent, and voluntary' waiver.” Order at 3.
Therefore, the Court instructed Ms. Davalloo “to file a notice
with this Court^by February 14, 2020, indicating whether
she wishes tollja) exhaust the competency claim in state
court before thrfyCourt rules on her federal petition; or (b)
waive the competency claim and limit her third ground for
habeas relief to?^whether the trial court erred in finding a
knowing, intelligent, and voluntary waiver.” Id. at 3. The
Court provided ijjurther that “if Ms. Davalloo chooses to waive
her competency claim, the Court will dismiss that claim with
prejudice and limit its ruling on the third ground for relief to
whether the trialpourt erred in finding a knowing, intelligent,
and voluntary waiver.” Id. at 4.
A

8:

On February 3, 2020, Ms. Davalloo notified the Court that she
had waived her^iinexhausted ground for habeas relief based
on the trial court-s failure to inquire into her competency to
waive counsel tuid that her third ground for habeas relief was
limited to whether the trial court erred in finding a knowing,
intelligent, andjjitoluntary waiver. Notice, ECF No. 29, (Feb.
3,2020).
M

p.|
*7 On April 4jj&020, the Court issued the following order:
%■

,
&'*
iii
Thd>-!petitioner has filed a notice
requesting the court to waive the
competency claim and proceed on
whether the trial court erred in finding
a knowing, intelligent and voluntary
waiyer. The petitioner is cautioned,
however, that if she proceeds only
as no the exhausted grounds, with
the - intention of presenting the
unexhausted grounds to this court after
theyJjiave been exhausted, she will run
thet.Visk that any such new petition
willbnot be considered by this court
i j(,
because it would constitute a second
or-Successive petition. See 28 U.S.C.
§ 2^l4(b)(2) (A claim presented in

i

a sdcond or successive habeas corpus
application under section 2254 that
wa^not presented in a prior application
shall be dismissed unless certain
i'

r&:

WESTtAW (0 2021 Thomson Reuters, No claim to original U.S. Government Works.

APPENDIX. A ,;(conT/ D)

5

&"
1
Oavalloo v. Kaplan, Slip Cop

0)

tl
circumstances apply)[.] Accordingly,
by May 8, 2020, petitioner should file
a second notice indicating whether she
still intends to proceed on only the
fully exhausted grounds despite the
risk that a new petition asserting other
grounds after full exhaustion could be
barred.

Order, ECF No. 30 (Apr. 4, 2020). Ms. Davalloo has not
filed a response to this order. Accordingly, the Court will now.
consider Ms. Davallo's exhausted claims.
II. STANDARD OF REVIEW
A court will entertain a petition for writ of habeas corpus
challenging a state Court conviction under § 2254 only if the
petitioner claims that her custody violates the Constitution
or federal laws. See 28 U.S.C. § 2255(a). A claim that a
state conviction was obtained in violation of state law is
not cognizable in federal court. See Estelle v. McGuire, 502
U.S. 62, 68 (1991) (“In conducting habeas review, a federal
court is limited to deciding whether a conviction violated the
Constitution, laws, or treaties of the United States.”).
Section 2254(d) “imposes a highly deferential standard for
evaluating state-court rulings and demands that state-court
decisions be given the benefit of the doubt.” Renico v. Lett,
559 U.S. 766, 773 (2010) (citations and internal quotations
omitted). A federal court cannot grant a petition for writ of
habeas corpus filed by a person in state custody with regardto any claim that was rejected on the merits by the state court
unless the adjudication of the claim in state court either:
(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established Federal
law, as determined, by the Supreme. Court of the United
States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.
28 U.S.C. § 2254(d). See Metrish v. Lancaster, 569 U.S.
351, 357-58 (2013) (noting that the habeas corpus relief
standard is difficult to meet as “a state prisoner must show
that the challenged state-court ruling rested on an error
well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.’ ” (quoting
Harrington v. Richter, 562 U.S. 86, 101 (201!))).

a
l.
Clearly established federal law is found in holdings, not
dicta, of the lifted States Supreme Court at the time of
the state court decision. See Howes v. Fields, 565 U.S. 499,
505 (2012) (in;-the context of a state prisoner’s application
for writ of habeas corpus, “clearly established law” signifies
i
“the holdings,l|as opposed to the dicta, of this Court's
decisions” (internal citation and quotation marks omitted));
Carey v. Mus/dcfin, 549 U.S. 70, 74 (2006) (stating same).
“[CJircuit precdtjlnt does not constitute ‘clearly established
Federal law, as|determined by the Supreme Court.’ ” Parker
v. Matthews, $hj, U.S. 37, 48 (2012) (quoting 28 U.S.C. §
(■jt

2254(d)(1)). A decision is “contrary to” clearly established
federal law when it applies a rule different from that set forth
by the Supreme'Court or if it.decides a case differently than
the Supreme Court on essentially the same facts. Bel! v. Cone,
535 U.S. 685, 6§4 (2002).
*8 A state court unreasonably applies Supreme Court law
when it has correctly identified the law but unreasonably
applies that law to the facts of the case or refuses to extend
a legal principle .clearly established by the. Supreme Court to
circumstances ittjendedto be encompassed by the principle.
See Davis v. GCdfa 532 F.3d 132, 140 (2d Cir. 2008).

I

It is not enougji that the state court decision is incorrect
or erroneous. $ze v. Senkowski, 321 F.3d 110, 124-25
(2d Cir. 2003;{to Rather, the state court application of
clearly established law must be objectively unreasonable,
a substantiallylllgher standard. Id.;. Schriro v. Landrigan,
550 U.S. 465$j|73 (2007). Thus, a state prisoner must
show that the'fichallenged court ruling “was so lacking
justification that' there was an error well understood and
comprehended f,;4jr) existing law beyond any possibility of
fairminded disagreement.” Harrington, 562 U.S. at 103; see
also Williams v.gdylor, 529 U.S. 362, 389 (2000) (“statecourt judgmentsnnust be upheld unless, after the closest
examination of2the state-court judgment, a federal court is
firmly convinced that a federal constitutional right has been
violated”).
;f.

1
When reviewing a habeas petition, a federal court presumes
that the factuaI;determinations of the state court are correct.
28 U.S.C. § 22-^.4(e)(l). The petitioner bears the burden of
v v‘'
rebutting that presumption by clear and convincing evidence.
Id. Moreover, “review under section 2254(d)(l) is limited to
the record that wSas before the state court that adjudicated the
claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 181
(2011).

1
I

III. DISCUSSION

WESTUAW -3 2021 Thomson Reyte-rs. No claim to original U.S. Government Wo;ks

I'

APPEND/* A (toNT'D)

6

"ii

<*»

Davalloo v. Kaplan, Slip Cop

0)

• iV

T
Petitioner must'Vhow that (1) the ruling was an error under
Petitioner claims that this Court should grant her § 2254
petition because (1) the trial court improperly admitted her
conversations with Christos, which were protected under
the marital privilege statute, (2) the trial court improperly
admitted evidence of her uncharged misconduct, including
her plans to surveil the victim and the assault on Christos, and
(3) she did not knowingly, intelligently, and voluntarily waive
her right to counsel. Pet. at 5-9.
Respondents argue that Petitioner's first two claims are
not cognizable for review by this Court because they
concern matters of pure state law and do not implicate any
constitutional right. Resp’t Opp’n at 2. As for the third claim,
Respondents argue that the Connecticut Appellate Court
reasonably applied United States Supreme Court precedent
in concluding that Petitioner knowingly, intelligently, and
voluntarily waived her right to counsel. Id.
In her reply, Petitioner argues that, even if she did not
adequately present her first two claims to the state courts
as denials of her federal constitutional right to due process,
“the state courts’ inquiries] would have been the same.”
Pet’r Reply at 2. As for the third claim, Petitioner counters
that the Appellate Court did not reasonably apply United
States Supreme Court precedent on her competency to waive
counsel. Id. at 7-8.
The Court agrees with Respondents that Petitioner is not
entitled to any habeas relief, will first address together her two
evidentiary claims, and then her waiver claim.
A. Evidentiary Claims
“Federal habeas corpus relief is generally not available for
errors of state law, including erroneous state court rulings
on the admissibility of evidence.” Stepney v. Semple, 3:11cv-1782 (VAB), 2015 WL 5601841, at *4 (D. Conn. Sep. 23,
2015) (citing Estelle. 502 U.S. at 67-68; Vega v. Walsh, 669
F.3d 123, 126 (2d Cir. 2012)); see also Crane v. Kentucky,
476 U.S. 683, 689 (1986) (United States Supreme Court
“reluctan[t] to impose constitutional restraints on ordinary
evidentiary rulings by state trial courts”). In order to prevail
on a collateral habeas review of a state-law evidentiary ruling,
Petitioner must establish that (1) the trial court's improper
evidentiary ruling was an error of constitutional magnitude
and (2) the constitutional error was not harmless. Perez v.
Phillips, 210 F. App’x 55, 57 (2d Cir. 2006).
*9 “Whether the improper evidentiary ruling was an error
of constitutional magnitude is itself a two-step analysis.” Id.

state law and (2j) the error deprived her of her constitutional
right to a fundamentally fair trial. Id.-, Stepney, 2015 WL
5601841, *4. If Petitioner fails to show that the trial court’s
ruling violated state law, her petition must be denied because
J.t'
“[a] proper application of a constitutional state taw cannot be
unconstitutional^ Peay v. Warden, 3:10-cv-85 (CSH), 2014
WL 4437716, dt$*6 (D. Conn. Sept. 9, 2014) (citing Brooks
v. Artuz, 97 Ci| 3300 (JGK), 2000 WL 1532918, at *6
(S.D.N.Y. Oct. «i>7, 2000)).
il .
In this case, Petitioner cannot show that the trial court's
' »‘rt
decision to adnkjjjher statements to Christos over her marital
privilege objection was an error of state law, much less an
error of constitutional magnitude. The Connecticut Supreme
Court, which /issued the last reasoned decision on this
14
^
issue,
rejected.Petitioner's evidentiary challenge based on
its own independent interpretation of the marital privilege
statute, § 54-8.4b. This Court defers to the state court's
interpretation of Estate law. See Mannix v. Phillips. 619 F.3d
187, 199 (2d Cir! 2010) (Second Circuit bound by state court's
construction of„state law); Ponnapula v. Spitzer, 297 F,3d
172, 182 (2d Cir.' 2002) (“Our federal constitution does not
dictate to the state courts precisely how to interpret their own
criminal statutes”); St. Louis v. Erfe, 3:12-cv-356 (DJS), 2016
WL 1465323, &f*9 (D. Conn. Apr. 14, 2016) (petitioner’s
challenge to state? court's denial of motion for acquittal based
on court's interpretation of state statute not cognizable for
federal review).^The Connecticut'-Supreme Court held that none of the
communication's^ in question—which included fictional
stories about Melissa, Jack, and Anna Lisa, false reports
that Petitioner’s|brother was visiting, questions about DNA
analysis and fmfbrprinting, and Petitioner’s statements during
the stabbing incident on March 23, 2003—were “induced by
the affection, confidence, loyalty and integrity of the marital
relationship,” as^equired by § 54-84b. Davalloo, 320 Conn, at
143-44. On the Contrary, they were meant to deceive Christos
and fuither her pISn to remove Christos and the victim, both of
whom stood in her way of having an extramarital relationship
with Sessler. I'd* Based on the plain language of § 54-84b
and the nature of these communications, the Supreme Court's
*
decision to affirm the trial court's ruling admitting these
communicationsiover petitioner’s objection was objectively
reasonable.

f

Because Petitiqrter has failed to show that the Supreme
Court's decisiotf.on her marital privilege claim was a violation
of state law, ancCshe does not challenge the constitutionality
K.V

•WESTLAW C) 2021 Thomson Reuters. No claim to oriainal U.S. Govenfeent Work s.

If

APPeNOi* A (jo©nt* o)

7

Davalloo v. Kaplan, Slip Cop

0)

-----;..... ..........^----------------------------- ——...... ..........of the marital privilege statute itself, this Court cannot grant

defense, [s]he relinquishes, as a purely factual matter, many of

her any habeas relief. See, e.g., Peay, 2014 WL 4437716, at

the traditional benefits associated with the right to counsel.'’

*6 (federal habeas court's conclusion that state court decision

Id. at 835. Thus, any waiver of the right to counsel must be

was proper application of state evidentiary rule necessitates

knowing, intelligent, and voluntary. ld.\ Iowa v. Tovar, 541

denial of petition on that ground). Therefore, Petitioner's

U.S. 77, 88 (2004). A waiver is knowing and intelligent when

marital privilege claim must fail.

the accused knows what she is doing and-is aware of the

*10

1

Similarly, Petitioner has failed to show that the

dangers and disadvantages of self-representation. Tovar, 541
U.S. at 88-89. $

f

Connecticut Appellate Court's decision affirming the trial
court's admission of uncharged misconduct evidence was

Although there is no specific formula or script which must

objectively unreasonable. Such evidence included Petitioner's

be read to an accused who elects to waive counsel, id. at 88,

attempted murder of her husband in New York and her

a trial court should engage in a “full and calm discussion”

procurement of a lock pick and eavesdropping devices to

with the accusin’ to ensure their awareness of the waiver

surveil Ms. Raymundo, the murder victim. Davalloo, 153

and the dangers; of self-representation, United Stales v Fore,
169 F.3d 104, |08 (2d Cir. 1999) (quoting United States v.

Conn. App. at 436. The Appellate Court reasonably applied
Conn. Code of Evid. § 4-5(b), which permits “evidence of

Tracy, 12 F.3d 1186, 1191 (2d Cir. 1993)). This discussion

other crimes, wrongs or acts ... to prove intent, identity,

normally would),include an inquiry into the educational,

malice, motive, [or] common plan or scheme,” and held that

family, and employment history of the accused as well as

the evidence of Petitioner's attempted murder of her husband

her understanding of the nature of the charges and range

and plans to surveil the victim were probative of her motive

of possible punishments in the event of conviction. See

to eliminate those who stood in her way of her affair with

id. at 108. The extent of the discussion depends on the

Sessler. Id. at 442; see also Vega, 669 F.3d at 126 (trial court

circumstances

reasonably applied New York law in manner that was not
contrary to or unreasonable application of federal law).

each case. Id.

■■r
.i i

In this case, the Appellate Court carefully reviewed the
trial court's canva'ss of Petitioner's decision to waive counsel

Petitioner has not cited any United States Supreme Court

and Petitioner’stTesponses during that canvass, all of which

precedent or otherwise explained to this Court how the

supported a finding of a knowing, intelligent, and voluntary

Appellate Court's conclusion was objectively unreasonable.

waiver. The Appellate Court held that the trial court

Moreover, the Appellate Court correctly noted that the trial

thoroughly discussed with Petitioner the dangers of self­

court gave a limiting instruction to the jury that such evidence

representation, deluding the fact that she would have to

could not be used to show a propensity for violence. Id. at

abide by the rules of evidence “just like a lawyer” and

437-38. Thus, the admission of the evidence was not more

that she wouldfhave to prove by a preponderance of the.

prejudicial than probative. Id. at 441^12.

evidence any Affirmative defense she wished to raise in
the case. Davdjfoo, 153 Conn. App. at 447-48. The trial

Accordingly, Petitioner is not entitled to habeas relief on her
uncharged misconduct claim.

court's canvass'Was comprehensive, delving into Petitioner's
education, experience with criminal procedure, mental health
issues, and herjability to understand and educate herself of

B. Waiver of Counsel Claim

the relevant legA)1 principles involved in the case. See Trial
Unlike her evidentiary claims, Petitioner's third ground for

Tr. at 17-26. Araview of the canvass shows that Petitioner

habeas relief directly implicates a federal constitutional

gave coherent $nd informed responses to the trial court’s

'M

right, specifically her Sixth Amendment right to counsel.

questions and fully understood the right and advantages she

Nevertheless, this Court agrees with Respondents that

was relinquishing. See id. The Appellate Court’s judgment

Petitioner has not satisfied her burden of showing that the

therefore was Based on a reasonable application of United

Appellate Court's decision on her waiver of counsel claim was

States Supreme Court precedent.

contrary to, or an unreasonable application of, United States
Supreme Court precedent or the United States Constitution.

*11 Moreover,-the Appellate Court's rejection of Petitioner's
technical

challenges to the trial

court's

canvass

was

The Sixth Amendment guarantees the right of an accused to

reasonable in light of Faretta and Tovar. It properly held that

represent herself. Faretta v. California, 422 U.S. 806, 821

the trial court w|s not required to warn her about the problems

(1975). However, “[w]hen an accused manages h[er] own

associated with' “proving herself innocent" because the law
: f.

* Si­

vy £STl AW

T) 2021 Thomson Reuters; No claim to original U.S, Goyeri'lii|ent Works'

n

APP£»£>IX A (cfisJT^DO

8

Davalloo v. Kaplan, Slip Cop

I
;'£

#0)

i

it
does not require her to do so, and, contrary to Petitioner's
assertions, the record showed that the trial court fully inquired
into her reason for waiving counsel and warned her about the
advantages of having counsel to prove an affirmative defense.
See Davalloo, .153 Conn. App. at 446-68.
With respect to her claim that the trial court failed to inform
her that any sentence from a murder conviction could be
imposed consecutive to her preexisting New York sentence,
the Appellate Court reasonably concluded that such an
omission does not undermine the trial court’s finding of a
knowing, intelligent, and voluntary waiver. Id at 448-49;
see also Fore, 169 F.3d at 108 (law does not require explicit
accounting of potential punishment in Faretta discussion).
The trial court provided Petitioner with a realistic description
of her sentence exposure by informing her that a murder
conviction could result in a maximum possible sentence of
sixty years, which, considering petitioner’s age at the time of
the waiver, was effectively a life sentence on its own. Id.
Regardless of Petitioner's technical challenges, the Appellate
Court reasonably held that her waiver was valid.

Footnotes

1

2

3

■

4

m

Accordingly, P£$|ioner is not entitled to habeas relief on this
claim.
!

i§ii

IV. CONCLUSION
&•
For the foregoing reasons, Petitioner's petition for writ of
habeas corpus is DENIED.
The Clerk of the Com! is respectfully directed to enter
judgment in favpr of Respondents and close this case.
The Court further concludes Petitioner has not shown that
she was denied^bconstitutionally or federally protected right.
Thus, any appeal from this order would not be taken in good
faith and a certificate of appealability will not issue.
H3
SO ORDERED;&t Bridgeport, Connecticut, this 7th day of
August, 2020.
All Citations

:U
t •
Slip Copy, 2020fWL 4569858

1M

•a.4-<>

lij

Petitioner is currently serving a twenty-five year prison sentence for her N£\iv York convictions of attempted murder in the
second degree, assault in the first degree, and criminal possession of a weapon in the fourth degree. People v. Davalloo,
833 N.Y.S.2d 576 (N.Y. App. Div. 2007). The fifty-year sentence she received in Connecticut runs consecutive to her
New York sentence. Resp't Ex. M, ECF No. 25-35 at 39^10 (Sent. Tr. (Apr.,27, 2012)) (“Sent. Tr.").
On February 3, 2020, Ms. Davalloo provided a notice that she had waived her unexhausted ground for habeas relief
based on the trial court's failure to inquire into her competency to waive ^counsel and that her third ground for habeas
relief was limited to whether the trial court erred in finding a knowing, intelligent, and voluntary waiver. Notice, ECF No.
29 (Feb. 3, 2020).
“This case involves a love triangle between [Petitioner] and two of her co.workers at Purdue Pharma, a pharmaceutical
company in Stamford. [Petitioner] became obsessed with Nelson Sessler, oh'e of her coworkers. The victim was Anna Lisa
Raymundo, the second coworker.... In late 2000, Sessler met Raymundo at an after-work happy hour.... In the summer
of 2001, [Petitioner] met Sessler for the first time at another after-work happy/hour.... At some point, Sessler began sexual
relationships with both [Petitioner] and Raymundo.... By the summer of 2002s Sessler's attentions focused on Raymundo
and he suspended his sexual relationship with [Petitioner].... Raymundo jjecame Sessler's girlfriend and, although he
continued to maintain his separate apartment in Stamford, he spent ‘the majority of [his] time’ at Raymundo’s apartment,
located at 123 Harbor. Drive, ap[t.] 105, in Stamford. [Petitioner] was aware .that Sessler was living with Raymundo.” State
v.-Davalloo, 153 Conn. App. 419, 421 (2014), aff’d, 320 Conn. 123 (201$; Resp’t App’x A, ECF No. 25-1 (attaching
Davalloo, 153 Conn. App. 419).
“In 2002, [Petitioner] concocted an imaginary story about a love triangle aftipng three fictional ‘coworkers’ at Purdue [ ]:
'Melissa,' ‘Jack,’ and 'Anna Lisa.’ [Petitioner] related the ongoing saga, whifel|she presented as true, from the perspective
of her ‘friend’ Melissa, who supposedly was confiding in [her], [She] saidfThat Melissa, who was in a relationship with
Jack, was sad and depressed because Jack was also in a relationship withuanother woman, Anna Lisa. 'Melissa,' quite
clearly in retrospect, was [Petitioner]. 'Jack’ was Sessler, and ‘Anna Lisa’ was Raymundo. [Petitioner told] Christos about .
the love^triangle nearly every day. She included intimate details about Melissa and Jack. She told Christos that Melissa
was upset when Jack rebuffed her sexual advances. She once said that Melissa had discovered Jack's travel plans and
had flown to Jack's destination. She then ‘conveniently’ ran into him at the .airport as he was boarding a plane home and
sat next to him on the return flight. [She] constantly asked Christos for advice ‘on behalf of Melissa with questions such
■8

1

VVESTlAW o) 2021 Thomson Refers. No claim to o-ngirsai U.S. Goveir|1ient Works.

APPEND IX. A KcoMT’CO

9

%

6

Davalloo v. Kaplan, Slip Cop

l-r
as ... why Jack was cheating on one woman with the other. Christos listened to these stories to ‘humor’ [Petitioner]...."
Davalloo, 153 Conn. App. at 422-24.

5

“[Petitioner and] Sessler [ ] met periodically at the condominium unit in PJ&asantviile, New York, where [she] lived with
Christos. Before [they] would meet.... [Petitioner] would tell Christos that h^r mentally ill brother was coming to visit and
Christos had to leave the house and take his personal belongings with hit$. [She] told Christos that her brother might
react badly if he discovered that she was married. Christos believed this stoiry at first. He knew from [Petitioner's parents
that [she], in fact, had a mentally ill brother.” Id. at 421-22.

6

f

“[Petitioner] told Christos that she 'wanted to go on a stakeout’ with Meliss^.in order to ‘spy on Jack.’ [ ] Christos thought
the proposed surveillance was 'a little odd,’ [but] he did not believe it woul'd actually occur; he gave [her] a pair of night
vision binoculars. [She] told Christos that she had purchased a lock picket for Melissa because Melissa wanted to
break into Anna Lisa's apartment to look at photographs ... to 'get a sens^jof the relationship between Jack and Anna
Lisa[,]' [and she] practiced with the lock pick set on the[ir] front door.... [S^e] also asked Christos for an eavesdropping
device that she knew he owned .... Early one morning, [she called] Christy to [say] that she and Melissa were outside
Anna Lisa's apartment and asked [him] if Melissa should confront Anna L^a. Christos [said] that Anna Lisa had a ‘right
to know her boyfriend is cheating on her....’ In time, Christos became ‘sick’ of the stories of the love triangle and ‘kind
of got angry’ with [her].’’ Id. at 423-24.

7

“[0]n November 8, 2002, the Stamford Police Department received a 911 call in which the caller reported that a man
was assaulting someone at 123 Harborview, ap[t.] 105; the caller claimed to be a neighbor. The dispatcher knew that...
the given address had to be incorrect.... and discovered that [the call] had'come from a pay phone at a [ ] restaurant
[nearby].... The dispatcher sent officers to 123 Harbor Drive, ap[t.] 105, which she knew was a residential facility near the
[ ] restaurant. An officer knocked on the door of apartment 105 and received no answer. He pushed the door open and
saw the deceased victim, Raymundo, on the floor of the front foyer.... The victim had died from multiple stab wounds and
her injuries indicated a violent struggle.... [Opcers found details whose relevance later became apparent. At 11:57 a.m.,
the victim’s home telephone had been used to place a call to Sessler’s office; Sessler had not answered the call and
no voice message had been left. Officers discovered a bloodstain on therhandle of a bathroom sink, which suggested
that the assailant had tried to clean up after the crime. The bloodstain much later was determined to contain ‘all of the
different genetic elements that [were] present’ in the DNA profiles of both|Petitioner] and the victim. The state's expert
testified that due to the fact that the victim cleaned her apartment regularly, as testified to by Sessler and the victim's
parents, and the fact that the sink handle was nonporous, it was ‘extremely; extraordinarily unlikely’ that any DNA left by
[Petitioner] on the sink handle prior to November 8, 2002, would have lasted or remained ‘very long ....’ ’’ Id. at 424-26.

8

“After the victim’s death, [Petitioner] pursued Sessler. She sent him a care_package, consoled him, and was one of the
few people willing to talk to [him] about Raymundo at a time when most people 'sort of shunned’ him. In January, 2003,
[Petitioner] invited Sessler to go on a group ski trip[, which] turned out to be/only Sessler and [Petitioner]. Sessler again
entered into a sexual relationship with [Petitioner], [She] would invite Sessler to her residence, but, again, only after
having first told Christos that her mentally ill brother was visiting." Id. at 4^gj

9

“As part of his work, on November 13, 2002, Christos had a meeting with representatives from Pharmacia, where Anna
Lisa had worked [after leaving Purdue], The representatives mentionedjjjhat a colleague of theirs had been recently
murdered. Although a name was not mentioned, Christos began to woh’der if Melissa ‘did something’ to Anna Lisa.
Christos mentioned to [Petitioner] that an employee at Pharmacia had been killed and asked whether Melissa was
involved and if Anna Lisa was 'okay ....' [Petitioner] did not seem shocked or surprised and responded ... that Anna
Lisa was ‘fine.’ Christos testified at trial that he believed that, at that point? [Petitioner] thought that he had made that
connection. In late 2002, [Petitioner] reported to Christos that Jack and Aryia Lisa had 'broken up’ and that Melissa and

10

Jack were together exclusively. But also in late 2002, [Petitioner] asked Christos for information about fingerprints and
■J
DNA.” Id. at 427.
k
“In 2003, the frequency of trysts at the Pleasantville condominium—underCthe guise, so far as [Petitioner] told Christos,
of her mentally ill brother's visiting—increased. Christos was 'getting tired of leaving’ when [Petitioner's 'brother' visited
and told [Petitioner] that her brother 'ha[d] to be told that we’re married.’.pn March 22, 2003, [Petitioner] described a
guessing game to Christos. The game involved one person's being handfcyffed and blindfolded while the other placed
objects against the bound person’s skin; the bound person was to guess:.;the identity of the object. The following day,
[Petitioner] asked Christos if he wanted to play the guessing game. [Petitioner] was the first to be bound and blindfolded.
She guessed various household items. Then it was Christos’ turn. He lay on the floor, blind-folded and handcuffed to a
chair. Christos guessed various common household items. [Petitioner] then'.went to the kitchen to retrieve ‘one last item,
one more thing to guess.’ She sat on Christos’ midsection and touched tfokhtem to his face; Christos guessed the item
i

1

WESTtAW

w

£>2021 Thomson Routers. No claim to ongnal U.S. Govori|$|ont VVoms

APPENDIX

A

(.CON
(I •

IT

n

#0)
Davalloo v. Kaplan, Slip Cop

i
51:
SI1

$
A’;
was a candle. The item was a knife. [Petitioner] thrust the knife into Christos’ chest, paused and then again thrust the
knife into Christos’ chest. [She] said, 'Oh, my God, i think I hurt you. You’re^bleeding.’ Still blind-folded and handcuffed,
Christos asked [her] what had happened. She explained that “something feli'on you. I think the candle hurt you." Christos
asked [Petitioner] to remove the blindfold, and she did. But when he asked'her to remove the handcuffs, she stated
that she could not find the key. At Christos’ request, [Petitioner] helped him break the chair to which the handcuffs were
attached. Christos asked [Petitioner] to call 911. He heard [Petitioner] sefem to make a 911 call, but, after a significant
amount of time had passed, no ambulance arrived. Christos asked [her] So call 911 again and he asked to talk to the
operator. [Petitioner] told Christos that the operator did not want to talk to him, but rather wanted him to lie on the floor.
[She] at this point instead telephoned Sessler and invited him overto thet&ndominium for dinner. Eventually, Christos,
still conscious, asked [Petitioner] to take him to a nearby hospital, and [stie] obliged. She drove slowly, according to
Christos, and parked in the rear of the Behavioral Health Center of Westchester Medical Center in Valhalla, New York.
[Petitioner] got out of the car and opened the rear driver's side door. Chrfltos thought [she] was going to help him out
of the car until he saw an angry expression on her face and saw her lunge at him with the knife. Christos managed to
get out of the car and attempted to wrestle the knife out of [Petitioner's ftands. The melee moved to a grassy spot in
the parking lot, while Christos visibly was bleeding through his shirt. [Petitioner] begged Christos to 'stay with me, talk to
me ....’ Christos broke free, ran about 200 feet, and yelled to a medical relWent and another person, who were near the
entrance to the Behavioral Health Center. The resident called 911. [Petitionir] asked the resident to let her take Christos
to the emergency room. The resident refused. [Petitioner] was arrested, in 'Nbw.York, for attempted murder in connection
with this incident.” Id. at 427-29.

11
12

i

Hereinafter, the Court cites to Trial Transcript page numbers rather than IsCF docket entry page numbers.
Based on the context of the entire statement in the Trial Transcript, th’l Court assumes that the trial meant to say
“confident," not “competent.”

13

G

The Petitioner expressed her reason for waiving her right to counsel as follows:
THE COURT: Now you indicated ... that you wanted to represent yoursfelf because you had ideological differences'
with your lawyer in this case. I don’t want to know about your private discussions with your lawyer but I’m just --1 don't
know what that means. Maybe you could explain that to me.
I
[PETITIONER]: I think there's just differences in - in how to go about ^ like I felt that my hands were a little tied in
terms of some of the decision-making process and not that it was [counsel's] - I mean he’s done a phenomenal job
and we have a good rapport.

1,

However, I wanted a little bit more control over some of the decision-making process and just that, you know, just
that the witnesses, the order of witnesses, calling — which witnesses tp?call within the letter of the law; I wanted a
little control of that.
.ft
Trial Tr. at 20-21.

14

II

When reviewing a federal habeas petition challenging a state court conviction under § 2254, the Court reviews the “last
reasoned decision" by the state court. Ylst v. Nunhemaker, 501 U.S. 797;, 804 (1991). In this case, the Connecticut
Supreme Court issued the last reasoned decision on the marital privilege claim. The Connecticut Appellate Court issued
the last reasoned decision on the uncharged misconduct and waiver of cdy/isel claims.

m

End of Document

i

t) 2021 Thomson Reuters. No claim to original U.S. Government Works

1£

i

!*-

4
$

ill

1,
%

• ui
WESTIAW W 2021 fhomson Reuters, No claim to original U.S. Goverrlfent Works.

APPEND!* A Ceo

11

OD. Conn.
17-cv-1257
Bolden, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 3rd day of February, two thousand twenty-one.
Present:
John M. Walker, Jr.,
Robert D. Sack,
Steven J. Menashi,
Circuit Judges.
SHEILA DAVALLOO,
Petitioner-Appellant,

ORDER
No. 20-3087

v.
SABINA KAPLAN, SUPERINTENDENT,
BEDFORD HILLS CORRECTIONAL FACILITY, ET AL.,
Respondents-Appellees.

Appellant, pro se, moves for a certificate of appealability and in forma pauperis status. Upon due
consideration, it is hereby ORDERED that the motions are DENIED and the appeal is
DISMISSED because Appellant has not “made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c); see also Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
FOR THE COURT:
Catherine O’ Hagan Wolfe, Clerk of Court

APPENDIX 8

